           REVIEW OF
 FEDERAL TECHNOLOGY SERVICE’S
CLIENT SUPPORT CENTER CONTROLS
    AND TESTING OF CONTROLS
       GREAT LAKES REGION
REPORT NUMBER A050009/T/5/Z05023

          MAY 18, 2005
compliance deficiencies, including one with potential financial impact. In our review of
existing orders, we found that one order with prior deficiencies did not have adequate
remediation. In addition, this order had been inappropriately modified without price
justification to add work beyond the original scope. As directed in the Ronald W.
Reagan National Defense Authorization Act for Fiscal Year 2005, because the CSC is
not fully compliant, we are required to perform a subsequent audit of CSC contracting
practices by March 2006, to determine whether the CSC has become compliant.

Procurement Compliance Deficiency with Potential Financial Impact. We identified a
$54,965 schedule order for analytical support that was awarded without a best value
determination or support for billings analysis as required by Federal Acquisition
Regulation (FAR) 8.404. The statement of work required the contractor to provide
technical and economic analysis and technical expertise for the client agency. The
Project Manager for this task estimated the labor rates based on historical knowledge;
however, no independent government estimate or pricing analysis was prepared for this
order.

Other Procurement Compliance Deficiencies. We identified one order that had a
procurement compliance deficiency with no potential financial impact. The $695,400
order for assistance to implement a new web-based Commercial Asset Viability System
had no quality assurance surveillance plan (QASP) as of the date of award. In
accordance with FAR 46.401, a QASP should be prepared in conjunction with the
statement of work and incorporated into the task order file to assure that the
Government receives the services that are paid for. The CSC subsequently added the
QASP to the file at the kickoff meeting with the client.

Inadequate Remediation. As part of our review of current modifications to existing
orders, we reviewed an $11.2 million order awarded in September 2002, to support the
development and maintenance of planning documents in support of client
transformation initiatives. Our review of this order identified numerous deficiencies,
including an unjustified sole source award, inadequate best value determination, no
additional discount requested, or received (although the order was over the maximum
order threshold) and, inappropriate use of the IT Fund. The CSC had performed no
remediation on this task order as of the date of our review.

Existing Order Procurement Deficiency. We identified an inappropriate $4.1 million
modification to the existing $11.2 million schedule order noted above. The additional
work under the modification was not within the original scope of work, and the CSC did
not perform any pricing analysis.

Conclusion

While not fully compliant, we found that the Great Lakes Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.




                                         2
                      ATTACHMENT 1
MANAGEMENT COMMENTS
                                                                 ATTACHMENT 2


               REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
      CLIENT SUPPORT CENTER CONTROLS AND TESTING OF CONTROLS
                         GREAT LAKES REGION
                   REPORT NUMBER A050009/T/5/Z05023


                               REPORT DISTRIBUTION

                                                                          Copies

Acting Commissioner, Federal Technology Service (T)                         3

Regional Administrator (5A)                                                 3

Assistant Inspector General for Auditing (JA & JAO)                         2

Assistant Regional Inspector General for Investigations (JI-5)              1
